CERTIFICATE OF SERVICE
NO. TBD
Regina Therese Drexler
Petitioner,
v.
Theresa Spahn, Et al
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the REGINA
THERESE DREXLER PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of
the same by Fedex 2-Day, prepaid for delivery to the following address.
Katherine Field
Assistant City Attorney
Denver City Attorney’s Office
201 West Colfax Ave., Dept. No. 1108
Denver, CO 80202-5332
(720) 913-3100
kate.field@denvergov.org
Counsel for Theresa Spahn, Et al

Lucas DeDeus

June 16, 2021
SCP Tracking: Drexler-717 17th Street, Suite 2800-Cover White

